        Office of Inspector General




August 2, 2006

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT: Audit Report – Efficiency of Carrier Sequence Barcode Sorters
         (Report Number NO-AR-06-005)

This report presents the results of our self-initiated audit of the efficiency of carrier
sequence barcode sorters (CSBCS) (Project Number 05YG036NO000). Our objective
was to assess the efficiency of using CSBCS to process delivery point sequence mail at
the North Bend and Blaine Associate Offices (AOs); and the South Sound Delivery and
Distribution Center (DDC). We conducted this audit in cooperation with the Western
Area manager, Operations Support and the manager, Seattle District.

The Seattle District continues to make delivery point sequencing mail processing more
efficient. Specifically, the Seattle District has already discontinued CSBCS processing
at many of its facilities. However, we found that further opportunities exist to use the
delivery barcode sorter (DBCS) to process mail at the North Bend and Blaine AOs; and
the South Sound DDC. Processing mail on the DBCS rather than the CSBCS would
reduce mail processing and maintenance workhours, increase processing efficiency,
and improve use of DBCS. Further, transferring mail to the DBCS should allow the U.S.
Postal Service to maintain service and transportation commitments and increase
available workroom floor space. We estimate using the existing and anticipated DBCS
capacity would save 10,521 workhours, which could produce a cost avoidance of
approximately $3.7 million over 10 years. This amount represents funds put to better
use and will be reported as such in our Semiannual Report to Congress.

We made four recommendations in this report. Management agreed with our finding,
recommendations, and associated monetary impact. They have initiatives in progress,
completed, or planned addressing the issues in this report. Management’s comments
and our evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information please contact Robert J. Batta,
director, Network Operations - Processing, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    David E. Williams
    Michael T. Matuzek
    Harold J. Matz
    Richard H. Loar
    Steven R. Phelps
Efficiency of the Carrier                                                  NO-AR-06-005
 Sequence Barcode Sorters



                            TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                   1

    Background                                                                  1
    Objective, Scope, and Methodology                                           4
    Prior Audit Coverage                                                        5

 Part II

 Audit Results                                                                  6

    Assessment of the Efficiency of Carrier Sequence Barcode Sorter
                                                                                6
     Mail Processing
         Mail Processing and Maintenance Workhours                             6
         Mail Processing Efficiency                                            8
         Delivery Barcode Sorter Capacity                                      9
         Additional Impact on Operations                                       9
         Reason for, and Impact of, Not Consolidating Operations              10
         Management’s Actions                                                 11
    Recommendations                                                           11
         Management’s Comments                                                11
         Evaluation of Management’s Comments                                  12

 Appendix A. Western Area Map                                                 13

 Appendix B. Fiscal Year 2005 Mail Processing Workhour Analysis               14

 Appendix C. Seattle District Cost Avoidance (Funds Put to Better Use)        15

 Appendix D. Delivery Point Sequence Mailflow                                 16

 Appendix E. Fiscal Year 2005 Excess Seattle Processing and                   17
             Distribution Center and Everett Processing and Distribution
             Facility Delivery Barcode Sorters Mail Processing Capacity
             (Based on Achieving Target Productivity)

 Appendix F. Management’s Comments                                            18
Efficiency of the Carrier                                               NO-AR-06-005
 Sequence Barcode Sorters


      LIST OF ILLUSTRATIONS, FIGURES, CHARTS, AND TABLES

 ILLUSTRATION

 Illustration 1: Two Carrier Sequence Barcode Sorters located at the
                                                                             2
                 Blaine Associate Office

 FIGURE

 Figure 1: Projected (FYs 2006 - 2010) Standard Letter Mail Volume           3

 Figure 2: Projected (FYs 2006 - 2010) First-Class Letter Mail Volume       3

 CHARTS

 Chart 1: Active CSBCS in the Western Area by District                       4

 Chart 2: FY 2005 DBCS and CSBCS Productivity                                8

 TABLE

 Table 1: Locations That Process DPS Mail                                    7
Efficiency of the Carrier                                                                            NO-AR-06-005
 Sequence Barcode Sorters



                                       EXECUTIVE SUMMARY
    Introduction                   This report presents our assessment of the U.S. Postal
                                   Service’s delivery point sequence (DPS) operation at
                                   associate offices and mail processing facilities in the Seattle
                                   District. Our objective was to assess the efficiency of using
                                   carrier sequence barcode sorters (CSBCS) to process DPS
                                   mail at the North Bend and Blaine Associate Offices (AO);
                                   and the South Sound Delivery and Distribution Center
                                   (DDC). We conducted this audit in cooperation with the
                                   Western Area manager of Operations Support and the
                                   manager, Seattle District.

    Results in Brief               The Seattle District continues to make DPS mail processing
                                   more efficient. Specifically, the Seattle District has already
                                   discontinued CSBCS processing at many of its facilities.
                                   However, we found that further opportunities exist to use the
                                   delivery barcode sorters (DBCS) to process mail at the
                                   North Bend and Blaine AOs; and the South Sound DDC.
                                   Processing mail on the DBCS would:

                                   •   Reduce mail processing and maintenance workhours.
                                   •   Increase processing efficiency in the Seattle District.
                                   •   Improve DBCS utilization.

                                   We also found that using the DBCS at these facilities should
                                   allow the Postal Service to maintain service and
                                   transportation commitments and increase available
                                   workroom floor space.

                                   39 U.S.C. Chapter 4, § 403 (a) states:

                                          The Postal Service shall plan, develop,
                                          promote, and provide adequate and efficient
                                          postal services . . . .

                                   The Postal Service did not eliminate some CSBCS
                                   processing due to DBCS capacity concerns. However, in
                                   anticipation of declines in letter mail volume,1 we estimate
                                   that adequate DBCS capacity will exist by fiscal year
                                   (FY) 2011. Consequently, the Seattle District could realize
                                   additional workhours savings to sort letter mail to DPS. We
1
 From FYs 2006 through 2010, the Postal Service projects that First-Class Letter Mail volume will decline more than
Standard Letter Mail will increase, resulting in an overall decline in letter mail volume.



                                                         i
Efficiency of the Carrier                                                     NO-AR-06-005
 Sequence Barcode Sorters



                            estimate using existing and anticipated DBCS capacity
                            would save 10,521 workhours. This workhour reduction
                            could produce a cost avoidance of approximately
                            $3.7 million over 10 years.

 Summary of                 We recommended the vice president, Western Area
 Recommendations            Operations, direct the manager, Seattle Customer Service
                            District, to discontinue use of CSBCS at the North Bend and
                            Blaine AOs; and the South Sound DDC by FY 2011.

 Summary of                 Management agreed with our finding, recommendations,
 Management’s               and associated monetary impact. Management indicated
 Comments                   they should eventually be able to eliminate the use of
                            CSBCS through improved mail processes and the
                            realization of predicted letter mail volume decreases.
                            Management indicated that this would allow for the
                            reduction of letter mail operating costs by the amount
                            identified in the report over the next 5 fiscal years.
                            Management’s comments, in their entirety, are included in
                            Appendix F.

 Overall Evaluation of      Management’s comments are responsive to the finding and
 Management’s               recommendations. Management recognizes there are
 Comments                   opportunities to use DBCS to a greater extent in letter mail
                            processing. Management’s response also indicated they
                            are taking a proactive approach to improving letter mail
                            processing efficiency where warranted. Management’s
                            actions, taken or planned, should correct the issues
                            identified in the report.




                                             ii
Efficiency of Carrier                                                                                     NO-AR-06-005
 Sequence Barcode Sorters


                                              INTRODUCTION
    Background                       The U.S. Postal Service’s letter automation program was
                                     designed to reduce costs by using automated equipment.
                                     One of the ways to process letter mail is to sort it into the
                                     order it is delivered - delivery point sequencing (DPS).2
                                     This is accomplished by utilizing the barcode representation
                                     of the existing ZIP+4 Code and the last two numbers of the
                                     street address on the mailpiece. DPS provides significant
                                     savings by eliminating the need for carriers to manually
                                     case3 letters.

                                     The Postal Service uses two types of equipment to sort mail
                                     into DPS: the delivery barcode sorter (DBCS) and the
                                     carrier sequence barcode sorter (CSBCS).

                                     •   The DBCS is a multilevel, high-speed barcode sorter
                                         located in mail processing facilities designed to process
                                         mail in a fully barcoded environment. The DBCS has a
                                         throughput of about 39,000 pieces per workhour.

                                     •   The CSBCS is a small, high-speed barcode sorter
                                         designed specifically for decentralized processing in
                                         associate offices.4 The CSBCS has a throughput of
                                         about 19,000 pieces per workhour. Illustration 1 shows
                                         the CSBCS at the Blaine Associate Office (AO).




2
  DPS is the process of sorting barcoded mail into the carrier’s walk sequence so the carrier can deliver it without
manual sorting before going to the street.
3
  A “case” is a piece of equipment containing slats into which employees sort letters, flats, and irregular parcels.
4
  A post office that is in a service area of a processing and distribution center (P&DC) which usually receives all mail
classes to and from the facility.



                                                            1
Efficiency of Carrier                                                                            NO-AR-06-005
 Sequence Barcode Sorters




 Illustration 1. Two CSBCS located at the Blaine AO. (Blaine, Washington AO, July 27, 2005, 5:42 a.m.)

                                 The Postal Service placed over 3,700 CSBCSs in its
                                 facilities to increase overall processing capacity nationwide
                                 in anticipation of increased letter mail volume.
                                 Unfortunately, the entire projected growth of letter mail
                                 volume did not occur. Although the Postal Service projects
                                 that Standard Letter Mail will increase by over 5.8 billion
                                 pieces from fiscal years (FY) 2006 through 2010, First-Class
                                 Letter Mail is projected to decrease by over 8.6 billion
                                 pieces during the same period. Figure 1 shows the
                                 increasing trend of Standard Letter Mail volume while
                                 Figure 2 shows the declining trend of First-Class Letter Mail
                                 volume.




                                                       2
Efficiency of Carrier                                                                                             NO-AR-06-005
 Sequence Barcode Sorters



                                                         Figure 1. Projected (FYs 2006 - 2010)
                                                             Standard Letter Mail Volume
                                           70.0

                                           68.0
        Pieces in Billions




                                           66.0

                                           64.0

                                           62.0

                                           60.0
                                                          2006         2007          2008      2009        2010
                                                                               Fiscal Years




                                                          Figure 2. Projected (FYs 2006 - 2010)
                                                             First-Class Letter Mail Volume
                                                  95.0
                             Pieces in Billions




                                                  92.0

                                                  89.0

                                                  86.0

                                                  83.0

                                                  80.0
                                                           2006        2007          2008     2009      2010
                                                                              Fiscal Years


                                                                 The Seattle District is in the Western Area (see Appendix A
                                                                 for a map of the Western Area). The Western Area has
                                                                 12 districts.5 Eleven of these districts have 350 active

5
  During the audit, the Western Area had 12 Postal Service districts. As of April 1, 2006, the Western Area gained
two additional Postal Service districts; Arizona and Nevada-Sierra.



                                                                                 3
Efficiency of Carrier                                                                                    NO-AR-06-005
 Sequence Barcode Sorters


                                    CSBCS,6 14 of which are located in the Seattle District.7
                                    Chart 1 shows the number of active Western Area CSBCS
                                    by district.

                                            Chart 1. Active CSBCS
                                                                                                 Dakotas
                                        in the Western Area by District
                                                                                                 Hawkeye
                                                     1                                           Northland
                                        52                    30

                                                                           44                    Seattle
                                                                                                 Anchorage
                                                                                                 Big Sky

                          72
                                                                                                 Portland
                                                                                                 Colorado
                                                                            85                   Mid-America
                                   22
                                             19   4 7    14                                      Central Plains
                                                                                                 Salt Lake City

    *The Spokane District does not have any CSBCS.


    Objective, Scope, and           The objective of this audit was to assess the efficiency of
    Methodology                     using CSBCS to process DPS mail at the North Bend and
                                    Blaine AOs; and the South Sound Delivery and Distribution
                                    Center (DDC).

                                    The audit focused on the methods used to sort mail into
                                    DPS at applicable mail processing facilities and associate
                                    offices in the Seattle District. For FYs 2004 and 2005, we
                                    analyzed the efficiency of the CSBCS and DBCS. We also
                                    examined opportunities to consolidate processing
                                    operations and the potential impact on customer service
                                    and transportation. In addition, we examined the elimination
                                    of CSBCS processing by the Pittsburgh District in
                                    Pennsylvania to determine the effects of centralizing DPS
                                    operations.

                                    We relied on computer-processed data maintained by
                                    Postal Service Operational Systems, including the National
                                    Workhour Reporting Systems (NWRS), Web Enterprise
                                    Information System (WEBEIS), Web End of Run System


6
 Number of active CSBCS in the Western Area as of July 14, 2005.
7
 Even though the Seattle District does not employ CSBCS extensively as compared to other sites, we chose the
Seattle District as our first site in order to refine our methodology and gain insights from Seattle District management.
The Seattle District is one of the best performers with regards to productivity in the nation.



                                                            4
Efficiency of Carrier                                                                                     NO-AR-06-005
 Sequence Barcode Sorters


                                     (WEBEOR), FLASH,8 Web Management Operating Data
                                     System (WEBMODS), Job Information Monitoring System
                                     (JIMS), Origin Destination Information System (ODIS),
                                     Delivery Operations Information System (DOIS), Corporate
                                     Data Base systems, and the Electronic Maintenance Activity
                                     Reporting and Scheduling (eMARS) system. We did not
                                     test the validity of controls over these systems. However,
                                     we checked the accuracy of the data by confirming our
                                     analysis and results with Postal Service managers.

                                     We also conducted interviews and observations. Finally,
                                     we analyzed first handling pieces (FHP)9 and/or total piece
                                     handling (TPH)10 productivity levels, workhours, sorter
                                     output, mail arrival and employee work schedules, and
                                     trends.

                                     We conducted this audit from July 2005 through
                                     August 2006 in accordance with generally accepted
                                     government auditing standards and included such tests
                                     of internal controls as we considered necessary under
                                     the circumstances. We discussed our observations and
                                     conclusions with management officials and included their
                                     comments where appropriate.

    Prior Audit Coverage             We did not identify any prior audits or reviews related to the
                                     objective of this audit.




8
  FLASH designates a critical job, data, or application that must be recovered within 2 days.
9
  Mail volume recorded into the operation where it will receive its first distribution handling within a postal facility.
10
   The total of the FHP and second handling pieces volumes become the TPHs for manual operations. For machine
operations, TPH is total pieces fed minus any reworks or rejects.



                                                            5
Efficiency of Carrier                                                           NO-AR-06-005
 Sequence Barcode Sorters


                                   AUDIT RESULTS
 Assessment of the          The Seattle District continues to make delivery point
 Efficiency of Carrier      sequencing mail processing more efficient. Specifically, the
 Sequence Barcode           Seattle District has already discontinued CSBCS processing
 Sorter Mail                at many of its facilities. However, we found that further
 Processing                 opportunities exist to use the DBCS to process mail at the
                            North Bend and Blaine AOs; and the South Sound DDC.
                            Processing mail on the DBCS would:

                            •   Reduce mail processing and maintenance workhours.
                            •   Increase processing efficiency in the Seattle District.
                            •   Improve DBCS utilization.

                            We also found that using the DBCS at these facilities should
                            allow the Postal Service to maintain service and
                            transportation commitments and increase available
                            workroom floor space.

                            39 U.S.C. Chapter 4, § 403 (a) states:

                                  The Postal Service shall plan, develop,
                                  promote, and provide adequate and efficient
                                  postal services . . . .

                            The Postal Service did not eliminate some CSBCS
                            processing due to DBCS capacity concerns. However, in
                            anticipation of declines in letter mail volume, we estimate
                            that adequate DBCS capacity will exist by FY 2011.
                            Consequently, the Seattle District could realize additional
                            workhours savings to sort letter mail to DPS. We estimate
                            using the existing and anticipated DBCS capacity would
                            save 10,521 workhours. This workhour reduction could
                            produce a cost avoidance of approximately $3.7 million over
                            10 years.

 Mail Processing and        There is a favorable business case to process mail on
 Maintenance                DBCS instead of the CSBCS at the North Bend and Blaine
 Workhours                  AOs; and the South Sound DDC. Table 1 lists these
                            locations.




                                             6
Efficiency of Carrier                                                                         NO-AR-06-005
 Sequence Barcode Sorters




                           Table 1. Locations That Process DPS Mail
                                                                   Locations That Have DBCS
                Locations That Use                               Processing Capacity to Absorb
            CSBCS Processing to DPS Mail                              CSBCS Mail Volume

     North Bend AO
                                                                             Seattle P&DC
     (2 CSBCS Machines)


     Blaine AO
                                                                              Everett P&DF
     (2 CSBCS Machines)


     South Sound DDC*
                                                                          South Sound DDC*
     (10 CSBCS Machines)


 *CSBCS and DBCS are colocated at this facility.

                                     This would allow the Seattle District to reduce its total
                                     workhours by 10,521 as follows:

                                     •   The Seattle District could reduce 8,189 workhours as a
                                         result of eliminating CSBCS processing. Appendix B
                                         shows the number of mail processing workhours the
                                         Seattle District could save by eliminating CSBCS
                                         processing at each of the facilities.

                                     •   The Seattle District would not need and could eliminate
                                         2,332 of its maintenance workhours11 previously used to
                                         service 14 CSBCS.

                                     The economic impact of these reductions could produce a
                                     cost avoidance of approximately $3.7 million over 10 years.
                                     (See Appendix C for details.)

                                     To corroborate our analysis and recommendations, we
                                     reviewed the results after the Pittsburgh District eliminated
                                     CSBCS processing. The Pittsburgh District discontinued
                                     use of 37 CSBCS located in 16 AOs and eliminated over
                                     21,600 workhours. The Pittsburgh P&DC used existing
                                     DBCS capacity to process the additional workload while
                                     maintaining workhour levels.


11
     In FY 2005, the Seattle District used 4,431 maintenance workhours to service 14 CSBCS.



                                                          7
Efficiency of Carrier                                                                                      NO-AR-06-005
 Sequence Barcode Sorters



 Mail Processing                                    Employees could process mail sorted into DPS more
 Efficiency                                         efficiently on the DBCS than the CSBCS. The DBCS, by
                                                    design, is more productive than the CSBCS. The DBCS
                                                    has more stacker units12 to sort mail than the CSBCS, which
                                                    allows for deeper mail sortation without having to rerun mail
                                                    through the sorter. In FY 2005, we found:

                                                    •   The DBCS at the South Sound DDC processed
                                                        8,911 mailpieces per hour while the Bar Code Sorter
                                                        (BCS)/CSBCS at the same facility processed
                                                        5,196 mailpieces per hour.

                                                    •   The DBCS at the P&DC processed 9,528 mailpieces per
                                                        hour while the North Bend AO CSBCS processed
                                                        6,150 pieces per hour.

                                                    •   The DBCS at the Everett Processing and Distribution
                                                        Facility (P&DF) processed 10,257 mailpieces per hour
                                                        while the Blaine AO CSBCS processed 4,183 pieces per
                                                        hour.

                                                    This means employees processed at least one-third more
                                                    mailpieces on DBCS than they did on CSBCS. Chart 2
                                                    shows these productivity differences.

                                             Chart 2. FY 2005 DBCS and CSBCS Productivity


                              12,000.00

                              10,000.00
        Pieces Per Workhour




                               8,000.00

                               6,000.00

                               4,000.00

                               2,000.00

                                   0.00
                                          *SS DDC    SS DDC   Everett DBCS    Blaine   Seattle DBCS North Bend
                                           DBCS     BCS/CSBCS                CSBCS                   CSBCS

 *SS – South Sound

12
     A stacker is a bin(s) on automated equipment that collects mail after it is processed.



                                                                     8
Efficiency of Carrier                                                                                 NO-AR-06-005
 Sequence Barcode Sorters



                                   A major reason for the productivity differences was the
                                   DBCS requires less handling or passes13 in order to sort
                                   mail into DPS. Fewer handlings or passes means
                                   employees can process more mail more efficiently. We
                                   corroborated this by examining post-implementation results.
                                   For example, the Pittsburgh P&DC14 was able to process
                                   over 500,000 more mailpieces per day using the DBCS than
                                   the CSBCS. Appendix D shows the DBCS takes
                                   two handlings or passes to sort mail into DPS compared to
                                   the CSBCS which takes four handlings or passes.

 Delivery Barcode                  We found that adequate capacity exists to process the
 Sorter Capacity                   North Bend and Blaine AOs’ workload on the DBCS. (See
                                   Appendix E.)

                                   •    In FY 2005, the Seattle P&DC could process an
                                        additional 158 million pieces per year using the DBCS
                                        (based on 100 percent targeted productivity). In
                                        FY 2005, the North Bend AO processed approximately
                                        13 million mailpieces using their CSBCS.

                                   •    Likewise, the Everett P&DF has sufficient DBCS
                                        capacity to process more than 211 million additional
                                        mailpieces per year (based on 100 percent targeted
                                        productivity). In FY 2005, the Blaine AO processed
                                        approximately 8 million mailpieces using their CSBCS.

                                   However, even though sufficient DBCS capacity exists,
                                   there may not currently be sufficient capacity during the
                                   operational window.15 We believe that by FY 2011 — in
                                   anticipation of declining letter mail volume — sufficient
                                   capacity will exist.

 Additional Impact on              Processing mail on a DBCS rather than a CSBCS should16
 Operations                        allow the Postal Service to maintain service and
                                   transportation commitments. Moving mail upstream into
                                   plants should also free up workroom floor space in the AOs
                                   once the facilities eliminate their CSBCSs.


13
   Mail is processed to a finer sortation by using each address’s delivery sequence number.
14
   This was accomplished without the use of any additional workhours.
15
   Time mail must be processed to meet service standards.
16
   Although the full impact can not be assessed until after the mail is moved to the DBCS, nothing came to our
attention that would indicate any service degradation.



                                                          9
Efficiency of Carrier                                                                               NO-AR-06-005
 Sequence Barcode Sorters


                                   •   We concluded that service could be maintained by
                                       examining several examples. The Seattle District did not
                                       experience any adverse affects on delivery service in
                                       AOs that already discontinued CSBCS processing.17
                                       Moreover, after transitioning to the DBCS, the Pittsburgh
                                       District carriers began to deliver mail at relatively the
                                       same time as when they used the CSBCS – resulting in
                                       the same level of delivery service.

                                   •   Transportation commitments should be maintained and
                                       affects should be minimal. The Seattle P&DC could run
                                       North Bend AO’s mail in accordance with North Bend
                                       AO’s operating plan for transportation. The 37 mile
                                       distance between the Seattle P&DC and the North Bend
                                       AO should not impact operations or commitments.18

                                   •   On the other hand, the Everett P&DF may need to
                                       adjust its operating plan to accommodate DPS Blaine
                                       AO’s mail. The Everett P&DF is approximately 89 miles
                                       from the Blaine AO and already makes transportation
                                       runs to the Blaine AO. In fact, a portion of the
                                       transportation route already exists (i.e., Everett P&DF
                                       processed and transports DPS mail to the Bellingham
                                       AO, which is only 23 miles from the Blaine AO).

                                   Further, the AOs could use the available floor space upon
                                   removal of the CSBCS. Additional usage options include:

                                   •   Expand carrier workspace box sections.

                                   •   Centralize manual distribution operations.

                                   •   Allow space for additional DBCSs at the South Sound
                                       DDC.

 Reason for, and Impact            The Postal Service did not eliminate some CSBCS
 of, Not Consolidating             processing due to DBCS capacity concerns. However, in
 Operations                        anticipation of declines in letter mail volume, we estimate
                                   that adequate DBCS capacity will exist by FY 2011.
                                   Consequently, the Seattle District could realize additional
                                   workhours savings to sort letter mail to DPS.

17
   Seattle District associated offices that have discontinued use of CSBCS processing include: Aberdeen,
Bellingham, and Bremerton West Hills Station.
18
   Based on conversations with Seattle District management.



                                                        10
Efficiency of Carrier                                                          NO-AR-06-005
 Sequence Barcode Sorters



 Management’s Actions       The Seattle District has been progressive with DPS
                            operational efficiency. From calendar years 1998 to 2003,
                            the Seattle District eliminated the use of CSBCS to DPS
                            mail at several mail processing facilities. During the audit,
                            the Seattle District made further efficiency improvements to
                            their DPS operation by discontinuing the use of several
                            CSBCSs at the South Sound DDC. The Seattle District
                            plans to continue these cost reduction efforts where
                            practical and warranted.

 Recommendations            To improve efficiency, we recommend the vice president,
                            Western Area Operations, direct the manager, Seattle
                            Customer Service District:

                            1. Discontinue use of carrier sequence barcode sorters at
                               the North Bend and Blaine Associate Offices and the
                               South Sound Delivery Distribution Center by fiscal
                               year 2011.

                            2. Reduce a total of 8,189 mail processing workhours by
                               the end of fiscal year 2011 at the North Bend and Blaine
                               Associate Offices and the South Sound Delivery
                               Distribution Center with an associated cost avoidance of
                               over $2.8 million.

                            3. Reduce 2,332 maintenance workhours by the end of
                               fiscal year 2011 at South Sound Delivery Distribution
                               Center, the Seattle East Delivery Distribution Center,
                               and the Everett Processing and Distribution Facility with
                               an associated cost avoidance of over $870,000.

                            4. Adjust Everett Processing and Distribution Facility
                               operating plan to accommodate delivery point
                               sequencing mail for the Blaine Associate Office.

 Management’s               Management agreed with our finding, recommendations,
 Comments                   and associated monetary impact. Management indicated
                            they should eventually be able to eliminate the use of
                            CSBCS through improved mail processes and the
                            realization of predicted letter mail volume decreases.
                            Management indicated this would allow them to reduce
                            letter mail operating costs by the amount identified in the
                            report over the next 5 fiscal years.



                                            11
Efficiency of Carrier                                                         NO-AR-06-005
 Sequence Barcode Sorters




 Evaluation of              Management’s comments are responsive to the finding and
 Management’s               recommendations. Management recognizes there are
 Comments                   opportunities to use DBCS to a greater extent in letter mail
                            processing. Management’s response also indicated they
                            are taking a proactive approach to improving letter mail
                            processing efficiency where warranted. Management’s
                            actions, taken or planned, should correct the issues
                            identified in the finding.




                                            12
Efficiency of Carrier                          NO-AR-06-005
 Sequence Barcode Sorters


                               APPENDIX A

                            WESTERN AREA MAP




                                   13
Efficiency of Carrier                                                                         NO-AR-06-005
 Sequence Barcode Sorters


                                         APPENDIX B

    FISCAL YEAR 2005 MAIL PROCESSING WORKHOUR ANALYSIS

                                                                                  Workhours Saved if Seattle
                                                                     Pieces Per   P&DC runs North Bend's Mail
                                     Workload        Workhours       Workhour*    on its DBCS Machines

    Seattle P&DC DBCS Machines    1,011,961,100.00 106,209.32         9,527.99

                                                                                             748**
   North Bend AO CSBCS Machines    12,965,041.00         2,108.00     6,150.40


                                                                                  Workhours Saved if Everett
                                                                     Pieces Per   P&DF runs Blaine's Mail on
                                     Workload        Workhours       Workhour     its DBCS Machines

    Everett P&DC DBCS Machines     774,277,920.00        75,484.39   10,257.46

                                                                                           1,147***
     Blaine AO CSBCS Machines       8,104,147.00         1,937.00     4,183.87



                                                                                  Workhours Saved if South
                                                                     Pieces Per   Sound DDC runs its Mail on
                                     Workload        Workhours       Workhour     its DBCS Machines

  South Sound DDC DBCS Machines    326,384,740.00        36,623.73    8,911.84
                                                                                           6,294****
   South Sound DDC CSBCS/BCS
                                   78,452,526.67         15,097.09    5,196.53
             Machines

       Total Hours Saved                                                                    8,189




*Workload divided by workhours.
**If North Bend AO CSBCS workload was processed at the same pieces per workhour rate of the Seattle
P&DC DBCS (9,527.99), Seattle P&DC would have to use 1,360 workhours — a net savings of
748 workhours.
***If Blaine AO CSBCS workload was processed at the same pieces per workhour rate of the Everett
P&DF DBCS (10,257.46), Everett P&DF would have to use 790 workhours — a net savings of
1,147 workhours.
****If South Sound DDC CSBCS workload was processed at the same pieces per workhour rate of its
DBCS (8,911.84), South Sound DDC would have to use 8,803 workhours — a net savings of
6,294 workhours.




                                                    14
Efficiency of Carrier                                                                    NO-AR-06-005
 Sequence Barcode Sorters


                                                  APPENDIX C

                            SEATTLE DISTRICT COST AVOIDANCE
                               (FUNDS PUT TO BETTER USE)*

                                                                  Timeframe: 10 Fiscal Years for
     Recommended Action                                                Each Annual Action
              and                                                                   Discounted
      Employee Category                        Workhour         Undiscounted          Savings
            Affected                           Reduction          Savings       (Net Present Value)
 Efficiency Improvement:
                                                  8,189          $3,733,727         $2,815,458
 Mail Processing Clerks19
 Efficiency Improvement:
                                                  2,332          $1,158,357          $873,472
 Maintenance Technicians20
 Total                                           10,521          $4,892,084         $3,688,930


Notes:

•      We based cost avoidance on FY 2005 workhours and calculated it using the
       workhour reduction multiplied by the fully loaded labor rate.
•      We escalated labor cost at 2.8 percent.
•      We calculated net present value using the discount rate of 5.25 percent.
•      We based fully loaded labor rates on the Postal Service’s FY 2006 published rates.
•      We based labor cost escalation on the Postal Service’s FY 2006 published Decision
       Analysis Factors.
•      We based workhour reductions on FY 2005 usage of 19,142 mail processing and
       4,431 maintenance hours.

*Funds put to better use: Funds that can be used more efficiently by implementing
recommended actions.




19
     Postal Service level 5 mail processing clerk rate.
20
     Postal Service level 8 maintenance technician rate.



                                                           15
Efficiency of Carrier                                                                                NO-AR-06-005
 Sequence Barcode Sorters


                                                 APPENDIX D

                     DELIVERY POINT SEQUENCE MAILFLOW



                                         Mail Processing                  Mail Processing
                                             Center                           Center




                                      Mail is carrier route           Mail is carrier route
                                   sequenced on a Delivery          sequenced on a Delivery
                                   Barcode Sorter (1st Pass*)       Barcode Sorter (1st Pass)




                                       Mail is finalized to              Associate Office
                                    delivery point sequence
                                         after 2nd Pass


                                                                         Mail is sent to
                                                                     Associate Office for 2nd
                                        Associate Office                Pass on CSBCS




                                (No mail processing conducted)     Mail is processed on CSBCS
                                                                            for a 3rd Pass



                         Carrier leaves office                      Mail is finalized to delivery
                           to deliver mail                         point sequence after 4th Pass
                                                                             on CSBCS




                                                                                       Carrier leaves office
                                                                                         to deliver mail




*Mail is processed to a finer sortation by using each address’s delivery sequence number.




                                                              16
Efficiency of Carrier                                                                                           NO-AR-06-005
 Sequence Barcode Sorters



                                                   APPENDIX E

        FISCAL YEAR 2005 EXCESS SEATTLE PROCESSING
      AND DISTRIBUTION CENTER AND EVERETT PROCESSING
     AND DISTRIBUTION FACILITY DELIVERY BARCODE SORTERS
                  MAIL PROCESSING CAPACITY
          (BASED ON ACHIEVING TARGET PRODUCTIVITY)



                                                  Everett
                                                 211,511                                                      250,000




                                                                                                              200,000
                                                               Seattle
                                                               158,433




                                                                                                                        Pieces in M illio n s
                                                                                                          150,000



                                                                         Blaine Workload                  100,000
                                                                              8,104
                                                                                           North Bend
                                                                                            Workload
                                                                                             12,965       50,000
       Additional Mail Everett Can Work


                                                                                                          0
              Additional Mail Seattle Can Work
                                                                                      Associate Offices
                                                      Mail Processing Facilities




Note: Although it appears that sufficient DBCS capacity exists there may not currently be sufficient
capacity during the operational window (the time mail must be processed to meet service standards).
However, as mail volumes decline, capacity should become available.




                                                              17
Efficiency of Carrier                               NO-AR-06-005
 Sequence Barcode Sorters


                                  APPENDIX F

                            MANAGEMENT’S COMMENTS




                                      18
Efficiency of Carrier            NO-AR-06-005
 Sequence Barcode Sorters




                            19
